     Department of Homeland Security

     ��������������������������

         DHS’ Efforts To Screen Members of 

          Foreign Terrorist Organizations 


                    (Redacted) 





OIG-13-103                                     July 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department ofI-Iome1and &curity



                                 July 22, 2013


MEMORANDUM FOR:              The Honorable David F. Heyman
                             As~istant Secretary
                             Office of Policy

                             The Honorable John T. Morton
                             Director
                             U.S.lmmigmtion and Customs Enforcement

                             Thomas S. Winkowski
                             Deputy Commissioner of US Customs and Border Protection,
                             Performing the duties of the Commissioner of U.S. Customs
                             and Border Protection

FROM:                         Charles K. Edwards
                              Deputy Inspector General

SUBJECT:                      DHS' Efforts To Screen Members of Foreign Terrorist
                              Organizations - Low Enforcement Sensitive/For Official
                              Use Only

Attached for your information is our final report, DHS' Efforts To Screen Members of Foreign
Terrarist Organizations - Law Enforcement Sensitive/For Officiol Use Only_ We have also
included a redacted version of the report, which will be published on our website. We
incorporated the technical and formal comments from the Departments of Homeland
Security (DHS), State, and Justice in the final report where we deemed appropriate.

The report contains three recommendations aimed at improving operational challenges
that may reduce the effectiveness of DHS' visa security processes_ In response to our report,
U.S. Immigration and Cu~toms Enforcement concurred with all three recommendations,
which are resolved and open.

As prescribed by DHS Directive D77-01, Follow-Up and Resolutions for the Office of
Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your (1)
agreement or disagreement, (2) corrective action plan, and (3) target completion date for
each recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform u~ about the current status of the recommendation.
Unlil your rl5ponse is rec'!ived and evaluated, the   recomm~ndalions   will be consid'!r'!d
resolved and open.

Consistent with our rt'SpOnslbllltv under t he Inspector General Acr, we are providing (opies
of ol,lr report to appropriate congressional comm ittees with ove rsight and appropriation
responsibility over DHS.

Please ca ll me with any questions, or your staff may contact Deborah L. Outten-Mil ls, Acting
Assistant Inspector Genera l for Inspections, ~t (202) 254-4015, or Marcl~ Mo~ey Hodges,
Chh!f Ins pector, at (202) 25 4-4202.

Attachments




                                              ,
                                     OFFICE OF INSPECTOR GENERAL
                                                    1     ,


Table of Contents

Executive SUmmary........................................................................................................... 1

Background ..................................................................................................................... 3

Results of Review ............ .                                                                                        . ..... 11

          DHS Hal' Established Processes For Vetting Members of FTDs and Inadmissibility
          Waivers        .................................................................................................... 11

          DHS Followed Federal laws and DHS Policies and Procedures When Admitting
          Mr. Eldin into the United States ........................................................................... 15

          Visa Adjudication and Screenin g Procedures Can Be Enhanced ......................... 19
          Recommendation ................................................................................................ 21
          Management Comments and DIG Analysis ....................................................... 21

          New Initi~tives To Improve the Visa Sl':curity Processes May Not Address Some
          Security Vetting Issue, .....                         ........................................................ 22
          Recommendation ............................................................................................... 25
          Management Comments and DIG An alysis ......................... . . .......................... 25




                                     ...................... .................... ........................... 27
          Management Comments and DIG An alysis ....................................................... 27

          DHS Has No Knowledge of Plans To Transfer Mr. Omar Abdel Rahman To
          Egyptian Custody ............................................................................................... 28


Appendixes

          Appendix A:           Objective" Scope, and Methodology....                               ...................... 30
          Appendix S:           Recommendations ...................................................................... 32
          Appendix C:           Management Comments to the Draft Report.                            ...................... 33
          Appendix D:           Categori es ofTerrorist Organizations .......................................... 36
          Appendix E:           Pre-Adjudicated Threat Recognition Intelligence Operations Team
                                (PATRIOT) Initiative .................................................................... 37




www.oio .dhu oV                                                                                                 OIG-13-103
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       Appendix F:   Major Contributors to This Report ............................................... 38
       Appendix G:   Report Distribution ....................................................................... 39

Abbreviations
       ARO           Admissibility Review Office
       CBP           U.S. Customs and Border Protection
       DHS           Department of Homeland Security
       DOJ           Department of Justice
       DOS           Department of State
       ERO           Enforcement and Removal Operations
       FTO           Foreign Terrorist Organization
       ICE           U.S. Immigration and Customs Enforcement
       INA           Immigration and Nationality Act
       MOU           Memorandum of Understanding
       OIG           Office of Inspector General
       PATRIOT       Pre-Adjudicated Threat Recognition and Intelligence Operations
                     Team
       SAO           Security Advisory Opinion
       VSP           Visa Security Program
       VSU           Visa Security Unit




www.oig.dhs.gov                                                                                   OIG-13-103
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
The Homeland Security Act of 2002 transferred to the Department of Homeland Security
(DHS) a prominent role in the visa security process. Several DHS components, as well as
other U.S. Government departments and agencies, have roles and responsibilities to
ensure that members of Foreign Terrorist Organizations who seek admission into the
United States may be admitted only in compliance with applicable Federal laws.

In June 2012, Egyptian Hani Nour Eldin visited the United States as a member of an
Egyptian parliamentary delegation to meet with U.S. Government officials and business
leaders. During this visit, Mr. Eldin raised with White House officials the possibility of
transferring Omar Abdel Rahman, a convicted terrorist, from U.S. custody to Egyptian
custody. In June 2012, former Chairman Peter T. King, of the House Committee on
Homeland Security, raised concerns that Mr. Eldin, a self-proclaimed member of Gama’a
al-Islamiyya (the Islamic Group), which the Department of State has designated a
Foreign Terrorist Organization since 1997, was issued a visa and granted admission into
the United States. Former Chairman King requested that we review DHS admissibility
processes for members of Foreign Terrorist Organizations. He also asked that we
establish whether DHS has a potential role or has been consulted about transferring
convicted terrorist Omar Abdel Rahman from U.S. custody to Egyptian custody, for
“humanitarian and health reasons.”

We assessed DHS’ efforts to screen members of Foreign Terrorist Organizations.
Specifically, we reviewed whether (1) DHS has policies and procedures for admitting
members of Foreign Terrorist Organizations into the United States; (2) DHS and the
Department of State coordinate their efforts when waivers for inadmissibility are
granted to members of Foreign Terrorist Organizations; (3) the admittance of a specific
individual to the United States was in compliance with applicable Federal laws and DHS
policies; and (4) DHS has a role in custodial transfers of foreign nationals who are in
Department of Justice custody on terrorism charges.

We determined DHS has policies and procedures for admitting members of Foreign
Terrorist Organizations into the United States, and collaborating with other departments
and agencies when screening members of Foreign Terrorist Organizations and issuing
inadmissibility waivers. DHS did not determine any derogatory information on Mr. Eldin
prior to admitting him, and DHS followed established procedures for allowing Mr. Eldin
into the United States. However, we identified operational challenges that may reduce
the effectiveness of DHS’ visa security processes. We are making three recommendations




www.oig.dhs.gov                             1                                 OIG-13-103
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


to enhance DHS’ efforts to screen members of Foreign Terrorist Organizations. The
Department concurred with all recommendations.




www.oig.dhs.gov                           2                               OIG-13-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Background
In June 2012, Egyptian Hani Nour Eldin visited the United States as a member of an
Egyptian parliamentary delegation, which had been newly elected after the resignation
of former Egyptian President Hosni Mubarak. 1 These Egyptian Parliament members
came to Washington, DC, in part, to meet with senior U.S. Government officials to
discuss bilateral relations between the two countries. Mr. Eldin is an elected member of
the Construction and Development Party, affiliated with Gama’a al-Islamiyya (the
Islamic Group), which the Department of State (DOS) has designated as a Foreign
Terrorist Organization (FTO) since 1997. The party itself, however, is not a U.S.­
designated FTO. During a meeting with White House officials, Mr. Eldin raised the
possibility of transferring Omar Abdel Rahman, a spiritual leader to the Islamic Group,
from U.S. custody to Egyptian custody. Mr. Rahman, also known as the “Blind Sheik,” is
currently serving a life sentence without parole in U.S. Federal prison as a result of his
conviction on terrorism-related charges in connection with the 1993 World Trade Center
bombing.

According to a June 21, 2012, news article, Mr. Eldin was arrested in 1993 on terrorism
charges relating to a shooting incident between members of the Islamic Group and
Egyptian police. 2 In his interview for the article, Mr. Eldin denied having a role in the
shooting, and said he was arrested because of his political activism. In the interview, Mr.
Eldin also admitted to being an Islamic Group member but denied being a terrorist.

In June 2012, former Chairman Peter T. King, of the House Committee on Homeland
Security, raised concerns that a foreign national with connections to an FTO was issued
a visa and granted admission into the United States. On August 15, 2012, Former
Chairman King requested that we review DHS’ admissibility processes for foreign
nationals who are members of FTOs. Specifically, he requested we examine the
circumstances surrounding Mr. Eldin’s June 2012 admission, and determine what DHS
policies and procedures exist for admitting members of FTOs into the United States. In
addition, he asked that we establish whether DHS has a potential role or has been
consulted about transferring convicted terrorist Omar Abdel Rahman from U.S. custody
to Egyptian custody, for humanitarian and health reasons.




1
  Hani Nour Eldin applied for a nonimmigrant visa under his passport name, Hany Noureldin Abobakr
Sedik, but is referenced in this report by his commonly known name in Egypt, Hani Nour Eldin.
2
  Eli Lake, “Member of Egyptian Terror Group Goes to Washington,” The Daily Beast (21 June 2012).




www.oig.dhs.gov                                   3                                      OIG-13-103
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


DHS Core Missions Related to Screening and Admission of FTO Members

Protecting the American people from terrorist threats is one of DHS’ founding principles.
One manner in which the Department carries out this mission is prohibiting inadmissible
persons from entering the United States, while safeguarding lawful travel of eligible
individuals. DHS derives this authority from Section 428 of the Homeland Security Act of
2002, which transferred to DHS a prominent role in the visa security process. Section
428 of the act generally provides the Secretary of DHS the authority to administer
Immigration and Nationality Act (INA) provisions, as well as other laws relating to the
issuance of visas by DOS consular officers. This authority includes the ability to assign
personnel to DOS posts, review visa applications, grant waivers of inadmissibility, train
consular officers, and refuse the issuance of a visa. Within DHS, the Office of Policy, U.S.
Immigration and Customs Enforcement (ICE), and U.S. Customs and Border Protection
(CBP) all contribute to screening FTO members who attempt to travel to the United
States on nonimmigrant visas.

DHS’ Office of Policy is responsible for developing departmental policies, programs, and
planning to promote and ensure quality, consistency, and integration across all
homeland security missions. The Office of Policy also engages with external
stakeholders on a variety of issues related to nonimmigrant visas and border security.
Various offices within the Office of Policy play a role in integrating programs aimed at
protecting our borders, and the integrity of lawful travel to and from the United States:

       •	 The Office of Immigration and Border Security develops and coordinates
          immigration policies and procedures, including issues related to immigrant and
          nonimmigrant visas.

       •	 The Screening Coordination Office oversees and coordinates interagency and
          intradepartmental screening policies and procedures.

       •	 The Office of International Affairs develops strategy for coordinating the
          Department’s homeland security mission overseas, and actively engages with
          international partners to counter terrorism, enhance security, and improve
          border security management.

ICE performs screening and vetting of visa applicants through its Visa Security Program
(VSP). ICE’s VSP was established in the Homeland Security Act of 2002, to increase the
security of the visa process at U.S. embassies and consulates. 3 The program enhances
3
    Homeland Security Act of 2002 (Pub. L. No. 107-296), § 428 (2002).




www.oig.dhs.gov                                       4	                        OIG-13-103
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


national security by preventing terrorists, criminals, and other ineligible applicants from
receiving visas. In 2007, Congress appropriated $5 million to create the Security
Advisory Opinion (SAO) Unit within ICE’s VSP.4 The SAO Unit operates in accordance
with processes defined in a Memorandum of Understanding (MOU) between ICE and
DOS. 5 As of March 2013, ICE’s VSP had 20 Visa Security Units (VSU) to support DOS visa
security operations at U.S. embassies and consulates throughout the world.

CBP considers keeping terrorists out of the United States one of its priority missions.
Within this mission’s framework, CBP is responsible for facilitating lawful international
travel, while enforcing hundreds of U.S. laws and regulations, including immigration
laws. Accordingly, DHS’ authority to waive temporarily most grounds of inadmissibility
is delegated to CBP. 6 Within CBP’s Office of Field Operations, its Admissibility and
Passenger Programs – Admissibility Review Office (ARO) is charged with adjudicating all
nonimmigrant waiver applications pursuant to INA § 212(d)(3) in the CBP jurisdiction.7
DHS created CBP’s ARO in 2005 to achieve consistency in adjudicating nonimmigrant
waivers.

Members of FTOs and Their Admissibility to the United States

Before traveling to the United States, foreign nationals must generally obtain a
nonimmigrant visa for temporary stay. The INA, as amended, enumerates classes of
aliens that are ineligible for either a visa or admission into the United States. For
example, members of FTOs or individuals who have engaged or engage in terrorism-
related activity, as defined by the INA, are inadmissible to the United States. 8 The three
categories of terrorist organizations established by the INA are listed in appendix D. The
grounds for inadmissibility include, but are not limited to, individuals who—

    •    Have engaged in terrorist activity; 9
    •    Are engaged or are likely to engage in terrorist activity after entry;10

4
  U.S. Troop Readiness, Veterans' Care, Katrina Recovery, and Iraq Accountability Appropriations Act of

2007, H.R. 2206. A security advisory opinion is requested by DOS consular officers for visa applicants

requiring extra scrutiny and additional security checks.

5
  As of May 2013, the SAO Unit was in pilot status.

6
  Section 212(d)(3)(A) of INA.

7
  U.S. Citizenship and Immigration Services adjudicates waiver applications for the K, T, and U

nonimmigrant visa classifications because these nonimmigrants are prospective immigrants.

8
  Section 212(a)(3)(B)(i)(I) through (X) of INA.

9
  Section 212(a)(3)(B)(iii) of INA defines the term “terrorist activity” as various actions commonly 

associated with terrorism such as kidnapping, assassination, hijacking, nuclear, biological, or chemical 

agents, the use of firearms or other dangerous devices, etc.





www.oig.dhs.gov                                       5                                        OIG-13-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


     •	   Incited terrorist activity with intent to cause serious bodily harm or death;
     •	   Are representatives or current members of a terrorist organization;
     •	   Endorsed or espoused terrorist activity;
     •	   Received military-type training from or on behalf of a terrorist organization; or
     •	   Are spouses or children of anyone who has engaged in terrorist activity within
          the past 5 years (with certain exceptions).11

The INA, however, also contains provisions for certain ineligible applicants to apply for
waivers of their ineligibility. The INA grants the Secretary of DOS and DOS consular
officers the discretionary function to recommend waivers of ineligible nonimmigrant
visas to DHS for approval. 12 These recommendations are made only when justified by
foreign policy of other national interests. In addition, each waiver request requires
individual consideration by DHS.

Visa Adjudication Cooperation and Coordination Between DHS and DOS

Border security and preventing terrorists from entering the United States requires broad
information sharing, cooperation, and coordination among Federal Government
departments and agencies. DHS and DOS are both engaged in decisions on whether to
issue nonimmigrant visas, and subsequently admit aliens into the United States,
including granting inadmissibility waivers to FTO members when it benefits U.S. national
interests. An example may include granting an FTO member a waiver to attend United
Nations General Assembly meetings, when foreign policy interests have been
determined to outweigh any potential security threat.

Within DOS, the Bureau of Consular Affairs is responsible for visa operations, protecting
U.S. border security, and facilitating legitimate travel to the United States. DOS consular
officers overseas are responsible for issuing nonimmigrant and immigrant visas to
foreign nationals who travel to the United States. In processing a visa application,
consular officers review the application, conduct automated name checks against the
watchlist of known or suspected terrorists and data systems of criminal suspects, obtain
fingerprints, and interview the visa applicant. Then the consular officer decides whether
to approve or deny the visa application, or to request additional security checks or
information before adjudicating the application.

10
   Section 212(a)(3)(B)(iv) of INA defines “engaging in terrorist activity” as planning or executing a terrorist 

activity, soliciting others to do so, providing material support to a terrorist organization or member of a 

terrorist organization, and soliciting funds or recruiting members for a terrorist organization. 

11
   Section 212(a)(3)(B)(i) of INA.

12
   Section 212(d)(3)(A) of INA.





www.oig.dhs.gov                                         6	                                        OIG-13-103
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


DOS’ Bureau of Consular Affairs and ICE’s VSP Coordination

ICE’s VSP officials interact and coordinate regularly with DOS officials at headquarters
and overseas posts when conducting visa security functions. ICE VSU personnel
overseas conduct visa security activities that can be post-specific, depending on the
volume or type of visa applications, as well as available DOS resources at a post. ICE’s
VSP headquarters staff performs a variety of visa security checks for U.S. embassies and
consulates, and work closely with DOS partners on many initiatives to strengthen visa
security operations.

DOS’ Bureau of Consular Affairs and CBP ARO Coordination




Processes and Procedures for Security Advisory Opinions and Admitting FTO Members

DHS works with its Federal partners collaboratively to evaluate visa applicants and
determine whether it is in the national interest for a foreign national, who is
inadmissible under INA § 212, to visit the United States on a temporary nonimmigrant
waiver.




                                                                               13




13
  Consular Lookout and Support System (CLASS) is used by passport agencies, consulates, and border
inspection agencies to perform name-checks of visa and passport applicants in support of the issuance
process. CLASS is as an automated index for manual files at overseas posts and passport offices.




www.oig.dhs.gov                                     7                                      OIG-13-103
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




                                                                                       14




14
  Nonimmigrant visa applications will also be denied when applicants cannot overcome the presumption
of immigrant intent required by law by sufficiently demonstrating that they have strong ties to their home
country that will compel them to leave the United States at the end of their temporary stay.




www.oig.dhs.gov                                     8                                       OIG-13-103
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


DOS Referrals for Waiver Recommendations to CBP 



                                                                                                      . 15




                       . 16




                                                                                        18




15
   In addition to being qualified for the visa, foreign nationals cannot be inadmissible under INA sections
212(a)(3)(A)(i), 212(a)(3)(A)(ii), 212(a)(3)(A)(iii), 212(a)(3)(C), or clauses (i) and (ii) of paragraph
212(a)(3)(E). Furthermore, foreign nationals must not be inadmissible under INA § 214(b) [an intending
immigrant] and may not seek a waiver of nonimmigrant documentary requirements of INA § 212(a)(7)(B).
16
   The Consular Consolidated Database contains DOS’ immigrant and nonimmigrant visa records, including
visa applications, refusals, or issuances.
17


18
  TECS is an automated enforcement and inspections system that provides a large data system of
information for law enforcement and border inspection purposes, and serves a case management
function for ICE. The National Crime Information Center is a computerized index of criminal justice
information, such as criminal record history, fugitives, stolen properties, and missing persons.




www.oig.dhs.gov                                      9                                       OIG-13-103
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




DHS’ Role in Custodial Transfers

The Department of Justice (DOJ) has the primary responsibility for administering all
aspects of the International Prisoner Transfer Program, including the arrangements for
the physical transfer of prisoners who have been approved for transfer. 19 A convicted
foreign national is eligible to participate in the transfer program only if the prisoner is a
national of the receiving country. Once the foreign government accepts custody of the
prisoner, it assumes the responsibility of administering the transferred sentence.

DHS’s role in the prisoner transfer process is limited. When DOJ receives a new transfer
application, it is its practice, in all cases, to ask ICE for information about the
immigration status of the prisoner. In those cases where DHS played an investigative
role in the underlying prosecution, DOJ will also query DHS for its substantive views on
the transfer request. If DOJ approves a case for transfer, it will sometimes contact ICE
and request that it take action to obtain a removal order for the transferring prisoner.

Each quarter, DOJ provides a report to ICE that provides identifying information about
all of the prisoners it has approved for transfer during that quarter. If the foreign
country ultimately approves the transfer, DHS does not have an active role in the
physical transfer of the prisoner. The Federal Bureau of Prisons, which has legal custody
of the prisoner, is responsible for handling the arrangements for the transfer with the
receiving country and for making the physical transfer of the prisoner to the foreign
country escorts. This custodial exchange is done at an international airport.
Approximately a week before the transfer, the Federal Bureau of Prisons notifies ICE of
the date and place where the transfer will occur. After witnessing the departure of the
prisoner, the Federal Bureau of Prisons executes a form, attesting to the transfer.20 Per
agreement with DHS, the Federal Bureau of Prisons provides DHS with of a copy of this
form for DHS’ records.




19
     18. U.S.C. §§ 4100–4115.

20
     Federal Bureau of Prisons form BP-AO392.





www.oig.dhs.gov                                  10                               OIG-13-103
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Results of Review
Members of FTOs are inadmissible to the United States unless granted a temporary
waiver of inadmissibility. When FTO members are granted waivers for admission into
the United States, several DHS components, as well as other Federal Government
departments and agencies, have roles and responsibilities to ensure it is accomplished
in compliance with applicable Federal laws. DHS has policies and procedures for
admitting members of FTOs into the United States. We identified, however, operational
challenges that may reduce the effectiveness of DHS’ visa security processes.
Interagency notifications on visa security issues, potentially affecting admissibility to the
United States, need refinement. Additionally, some DHS components do not have
access to open source information resources, which may hinder the Department’s
ability to screen members of FTOs more effectively.

       DHS Has Established Processes For Vetting Members of FTOs and
       Inadmissibility Waivers

       DHS participates in vetting members of FTOs according to roles and
       responsibilities established in agreements with DOS. Under these agreements,
       the SAO process and ICE’s VSP are important means for vetting visa applicants to
       determine potential affiliation with FTOs. Once affiliation has been established,
       DHS uses its temporary waiver of inadmissibility process to determine whether
       permitting a member of an FTO to visit the United States is in the national
       interest. Interagency committees at DOS posts supplement other efforts to
       collect derogatory information, and identify previously unknown individuals with
       FTO affiliations.

       Memoranda of Understanding Define DHS and DOS Roles and Responsibilities
       Clearly

       In 2003 and 2011, DHS and DOS established MOUs to help define each
       department’s authorities, roles, and responsibilities under the Homeland
       Security Act of 2002 Section 428. The 2003 MOU recognizes that both DHS and
       DOS have roles “to create and maintain an effective, efficient visa process that
       secures America’s borders from external threats and ensures that [its] borders
       remain open to legitimate travel to the United States.” According to this MOU,
       DHS will rely on DOS’ foreign policy expertise, while DOS will rely on DHS’
       expertise on threats to U.S. security. The 2011 MOU was negotiated to facilitate




www.oig.dhs.gov                              11                                  OIG-13-103
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


        day-to-day interactions between ICE VSU representatives at post, consular
        officers, and diplomatic security.

        In addition to these general statements of intent, the 2003 MOU includes DHS’
        authority to issue or approve visa guidance. 21 DHS and DOS are both entitled to
        consult on the security, legal, operational, resource, foreign policy, or foreign
        relations implications of visa guidance changes. DHS controls visa guidance over
        grounds of inadmissibility for visa applicants, and is responsible for determining
        when to grant waivers of inadmissibility, although it shares this duty with the
        secretaries of State and Interior for two classes of applicants. Consular officers
        or the Secretary of State may recommend candidates for such waivers to DHS.

        The 2003 MOU also provides details for responsibility over SAOs. Specifically,
        DHS must concur on any changes DOS proposes to SAO policies and procedures.
        Moreover, DHS may direct changes to the SAO process when doing so serves the
        interest of homeland security. 22

        The 2003 MOU also describes the following duties for DHS overseas personnel
        with Section 428 responsibilities:

             •	 To provide advice to consular officers on specific threats posed by
                individual and classes of visa applications, including gathering intelligence
                on security threats through collaboration with other organizations at post
                and briefing consular officers accordingly;

             •	 To provide training on terrorist threats and interview techniques that
                identify threats or fraudulent applications;

             •	 To conduct investigations on consular matters under DHS jurisdiction;

             •	 To review visa applications, either at the request of a consular officer or
                by a process defined by DHS; and

             •	 To recommend to senior DOS officials at post that a visa be denied or
                revoked.

21
   Visa guidance is defined as regulations, Foreign Affairs Manual provisions, and DOS cables to posts

implementing laws pertaining to visas.

22
   This right to modify SAO processes does not include SAOs sought in relation to functions covered by 

paragraph 3(a)(2)(b) of the 2003 MOU.





www.oig.dhs.gov                                     12	                                      OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       The 2011 MOU provides additional details on the roles and responsibilities of ICE
       and DOS personnel stationed overseas. ICE’s VSP’s primary purpose is to
       maximize the visa process as a counterterrorism tool, and identify ineligible visa
       applicants prior to their travel to the United States.



                                    The MOU describes the dispute resolution process
       in cases where DOS and DHS personnel at post do not agree. Despite this
       discussion, the 2011 MOU states that disagreements are rare, and our fieldwork
       confirmed this statement.

       We determined that the MOUs effectively create guidance over the visa security
       process, including the relationship between DHS and DOS. Officials from both
       departments described their relationship as positive and productive. The MOUs
       also provide a means for making changes when doing so will enhance visa
       security. Moreover, the existence of the 2011 MOU demonstrates that the
       existing visa governance framework permits DHS and DOS to negotiate and
       implement identified process improvements.

       Current SAO Process Enhances Visa Security

       Section 428 and its implementing MOUs leverage the SAO process. DOS uses
       SAOs to provide consular officers with additional information related to potential
       security concerns arising from particular visa adjudications. DOS administers the
       SAO process, and a review board comprised of DHS, DOS, the Federal Bureau of
       Investigation, other intelligence community members, and the National
       Counterterrorism Center oversees the process and meets as needed. The SAO
       Requirements Review Board attempts to increase security, while eliminating
       unnecessary delays. For example, in 2007 the SAO board streamlined processing
       requirements for one SAO category. As a result, departments and agencies
       participating in the SAO review process received a travel advisory notice for
       applicants meeting certain criteria, but did not have to provide a response.

       DOS and DHS staff said the SAO process enhances visa security. A DOS Bureau of
       Consular Affairs official said the SAO process is designed to prevent dangerous
       individuals from traveling to the United States. We determined that officials
       from both departments have knowledge of the SAO process, and that this




www.oig.dhs.gov                            13                                OIG-13-103
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           process permits multiple departments and agencies to provide constructive
           comments on the visa security process.

           Visas Viper Committees Improve Visa Security

           In addition to the SAO process, DOS posts maintain interagency committees to
           improve visa security. Section 304 of the Enhanced Border Security and Visa
           Entry Reform Act of 2002 requires each DOS foreign mission to maintain a
           terrorist lookout committee. 23 Committee requirements are detailed in the U.S.
           Department of State Foreign Affairs Manual Volume 9 – Visas, “Visas Viper
           Interagency Terrorist Reporting Program.” Visas Viper committees are to—

                •	 Use the cooperative resources of all elements of the U.S. mission in the
                   country in which the consular post is located to identify known or
                   potential terrorists and to develop information on those individuals;

                •	 Ensure that such information is routinely and consistently brought to the
                   attention of appropriate U.S. officials for use in administering U.S.
                   immigration laws; and

                •	 Ensure that the names of known and suspected terrorists are entered
                   into the appropriate lookout data systems.

           Committees must meet at least monthly and, when engaged, enhance visa
           security. ICE VSU members stationed at DOS posts participate in Visas Viper
           meetings. An ICE VSU official described the program as providing an opportunity
           for various government departments and agencies located at a DOS post to
           circulate derogatory information on visa applicants. Another DHS official said
           Visas Viper committees have exhibited flexibility, such as conducting meetings
           via email message, when logistics or exigencies require it. Although the Visas
           Viper committee’s value ultimately depends on the quality of information
           shared, ICE officials suggested Visas Viper discussions are likely to prompt action,
           such as a more thorough review of a visa application or adding information to
           lookout data systems.




23
     Pub. L. No. 107-173.




www.oig.dhs.gov                                 14	                                OIG-13-103
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         DHS Followed Federal Laws and DHS Policies and Procedures When Admitting
         Mr. Eldin into the United States

         DHS’ review of Mr. Eldin’s visa application complied with established processes.




                                                            Since Mr. Eldin was not deemed
         inadmissible to the United States, DOS did not request CBP’s ARO to consider an
         application for temporary waiver of inadmissibility for Mr. Eldin. Without a
         waiver of inadmissibility granted, congressional notification requirements were
         not triggered.24 Moreover, CBP followed established protocols when screening
         Mr. Eldin prior to his flight’s departure and upon his arrival in the United States,
         allowing for Mr. Eldin’s entry into the United States.

         Circumstances Surrounding Mr. Eldin’s Admission into the United States

         Mr. Eldin applied for a nonimmigrant visa under his passport name, Hany
         Noureldin Abobakr Sedik, but he is widely known in Egypt as Hani Nour El Din.
         Mr. Eldin was one of eight newly elected Egyptian Parliamentarians, who were
         participating in a DOS-sponsored program in Washington, DC. The program
         began on June 17, 2012, and was an opportunity for these Egyptian
         Parliamentarians to meet with U.S. Government officials, business leaders, and
         think tank representatives. Table 1 identifies key dates and actions concerning
         Mr. Eldin’s visa.




24
  Not later than 90 days after the end of each fiscal year, the Secretaries of DOS and DHS must submit a
report to specified congressional committees on all individuals exempted under INA section 212(d)(3)(B)(i).
DHS does not have a reporting requirement for individuals granted temporary waivers of inadmissibility
under INA section 212(d)(3)(A).




www.oig.dhs.gov                                      15                                       OIG-13-103
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


        Table 1: Timeline for Mr. Eldin’s Visa Issuance and Revocation

          Date                                                  Action




                                                                                               . 25




        Source: OIG analysis.




25
  A B1/B2 visa permits a foreign national to visit the United States temporarily for both business and
pleasure.




www.oig.dhs.gov                                     16                                       OIG-13-103
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




                                                         26




26




www.oig.dhs.gov                 17                   OIG-13-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




        CBP Admitted Mr. Eldin into the United States

        The pre-departure Advance Passenger Information System requirement allows
        CBP to review passenger information before passengers board flights to the
        United States. The advance transmission of this information provides CBP the
        ability to identify potential threats and to prevent a person of interest from
        boarding an aircraft. CBP received Mr. Eldin’s biographical data prior to his
        flight’s departure, via Advance Passenger Information System, and the
        information was entered into CBP’s Automated Targeting System.27




        All foreign nationals applying for admission at a U.S. port of entry must undergo 

        an inspection by CBP officers.


27
  Automated Targeting System is CBP’s intranet-based enforcement and decision support tool that
compares traveler, cargo, and conveyance against intelligence and other law enforcement data.




www.oig.dhs.gov                                  18                                     OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security




                                                                                 the CBP

       officer’s interaction with the individual during primary inspection, determines
       whether an individual must undergo a more thorough secondary inspection,
       where additional questioning and record checks occur.

       Upon Mr. Eldin’s arrival in the United States, CBP screened him, and Mr. Eldin
       was identified as a member of an Egyptian delegation applying for admission as a
       visitor for official business.
                                  As a result, Mr. Eldin was not referred to secondary
       inspection. CBP deemed Mr. Eldin admissible to the United States based on
       information available at the time of his arrival.

       Visa Adjudication and Screening Procedures Can Be Enhanced

       The SAO review process was designed to provide in-depth screening and vetting
       of certain visa applicants who might pose a range of security threats, including
       those with potential FTO affiliation. Departments and agencies participating in
       the visa security process rely on information from multiple data systems, post-
       specific vetting criteria, and interagency alerts on security concerns, to ensure
       that potentially inadmissible applicants are not issued visas. As noted by ICE’s
       VSP officials, this interdependency means that the SAO process is effective only
       when departments and agencies share information to the fullest extent. Mr.
       Eldin’s case, however, illustrates that the current SAO process does not always
       maximize effective information sharing. Consequently, not all appropriate visa
       security partners have a chance to evaluate and respond to potential
       inadmissibility information.

       Visa application processing has time constraints, and visas requiring an SAO add
       to this timeframe.



       Therefore, it is prudent to highlight, as effectively as possible, visa applicants
       who may require additional scrutiny. It is unclear, however, whether the current
       visa application process has sufficient procedures to analyze and triage these
       applicants.




www.oig.dhs.gov                            19                                 OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Effective information sharing is of particular concern regarding applicants, such
       as Mr. Eldin, for whom consular notes are the sole source of potential
       derogatory information.


                                                                                the
       consular notes were the only indicator of Mr. Eldin’s more commonly known
       name in Egypt.




       One of the processes designed to enhance visa security is a Visas Viper meeting.
       ICE’s VSP officials explained that the purpose of these meetings is to identify
       unknown terrorists, so that applicants, such as those with potential FTO
       affiliation, can be recognized even though they do not have a record
       automatically flagging them as security concerns. However, a Visas Viper
       meeting was not held for Mr. Eldin’s visa.



                                                                                    The
       fact that a Visas Viper meeting could have resulted in additional scrutiny of Mr.
       Eldin emphasizes the need for more effective information sharing among visa
       security partners.




www.oig.dhs.gov                            20                                 OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Recommendation

       We recommend that the Director for U.S. Immigration and Customs Enforcement:

       Recommendation #1:

       Work with visa security partners to develop a threshold for interagency
       notifications, when information developed during the visa adjudication process
       identifies potential issues concerning an applicant’s admissibility to the United
       States.

       Management Comments and OIG Analysis

       We evaluated ICE’s written response and have made changes to the report
       where we deemed appropriate. A summary of ICE’s written response to the
       report recommendations and our analysis of the response follows each
       recommendation. A copy of ICE’s response, in its entirety, is included as
       appendix C.

       In addition, we received technical comments from ICE, CBP, DOS, and DOJ, and
       incorporated these comments into the report where appropriate. ICE concurred
       with all recommendations in the report. We appreciate the comments and
       contributions made by DHS, DOS, and DOJ.

       Management Response to Recommendation 1: ICE concurs with
       Recommendation 1. ICE officials responded that the scheduled Pre-Adjudicated
       Threat Recognition and Intelligence Operations Team (PATRIOT) initiative rollout
       will allow ICE’s VSU special agents at post to receive nonimmigrant visa
       applications via the VSPTS.net, which is an upgraded version of the tracking
       system. The special agents will be able to review and vet the applications prior
       to DOS adjudicating the applicants. This will allow ICE’s VSU special agents
       additional time and opportunity to discuss with DOS and other U.S. Government
       partners at post, and to highlight visa applicants who may require additional
       scrutiny, but would otherwise fall outside the targeting criteria of a particular
       post. Also, PATRIOT will allow the Visas Viper committee to be more effective as
       they will have the capability to discuss applicants prior to their initial visa
       interview with DOS. PATRIOT will give ICE’s VSUs and DOS time to coordinate a
       course of action. With the combination of PATRIOT, DOS, and ICE’s VSU's at




www.oig.dhs.gov                            21                                 OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       post, the visa security process and information sharing will be strengthened
       greatly.

       ICE officials further responded that determining whether an applicant is chosen
       for further scrutiny by the VSU at post is called the "targeting plan." The
       targeting plan is designed by each VSU at post based on the threat environment
       at that particular post. Some visa applicants will be designated as requiring an
       SAO.




       Along with the SAO process, each ICE VSU participates in an interagency
       committee to improve the visa security process. This is known as the Visas Viper
       committee. This process is used by DOS to nominate known or suspected
       terrorists to be entered in the appropriate lookout data systems. This process is
       important to ensure that derogatory information is being shared and to keep the
       visa process secure. After evaluation, ICE will be able to estimate better a target
       date for establishing the recommended procedures.

       OIG Analysis: We consider ICE’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. We will close this
       recommendation when we receive and have reviewed the threshold developed
       for highlighting visa applicants who may require additional scrutiny, but would
       otherwise fall outside the targeting criteria of a particular post.

       New Initiatives To Improve the Visa Security Processes May Not Address Some
       Security Vetting Issues

       Since 2004, ICE’s VSP has been screening and vetting visa applications after the
       DOS consular officer interviews the applicant. In 2009, ICE visa security officials
       determined ICE could enhance the screening process by analyzing visa
       applications prior to DOS’ adjudication. In addition, communication between
       various tracking systems needed improvement. Tracking systems did not permit
       real-time data exchange, which presented communications problems between
       departments and agencies, as well as ICE’s VSUs. ICE officials engaged DOS, and
       visa security partners within DHS, and created a system to address these security
       concerns. However, the new system may not resolve certain security issues,
       such as those presented in Mr. Eldin’s case.




www.oig.dhs.gov                            22                                 OIG-13-103
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         Pre-Adjudicated Threat Recognition Intelligence Operations Team Initiative

         In development since 2009, the PATRIOT program uses interagency resources
         from ICE, CBP, DOS, and the Intelligence Community to identify national security,
         public safety, and other eligibility concerns related to visa applicants.




         PATRIOT                                                                                          




                             screening results produce either a “green light” or “red light” 

         response for DOS, indicating whether or not DHS holds derogatory information
         on an applicant. A red light indicates derogatory information, and locks an
         application in DOS’ systems to permit further review by ICE and CBP. A green
         light indicates no derogatory information, and permits DOS to begin visa
         issuance procedures.

         When PATRIOT locks a nonimmigrant visa application, ICE and CBP personnel
         further vet any derogatory screening results. After ICE agents and CBP officers
         complete a joint review of the derogatory information, they inform DOS, via the
         Visa Security Program Tracking System, whether DHS objects to the visa
         issuance. All such objections are accompanied by a justification based on the
         INA or other legislation that restricts visa eligibility. 29 PATRIOT is web-based, and
         will permit real-time data exchange among all participating visa security
         departments and agencies.

         With PATRIOT, ICE’s visa security review process is pre-adjudicative. This
         approach is intended to allow visa eligibility concerns to be identified earlier in
         the application process, resulting in enhanced security, better timeliness, and

28


29
  Examples of legislation that restrict visa eligibility include Section 306 of the Enhanced Border Security
and Visa Responsibility Act of 2002, and Section 501 of the Iran Threat Reduction and Syria Human Rights
Act of 2012 (Pub. L. No. 112-158).




www.oig.dhs.gov                                      23                                        OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       more transparency. Since visa security and eligibility concerns from DHS
       holdings will be identified and evaluated prior to a DOS applicant interview, a
       consular officer will be prepared better to ask more specific questions of those
       applicants. The initiative will also (1) allow ICE to screen 100 percent of
       applicants worldwide against DHS holdings when resources, primarily
       congressional funding and personnel from ICE, are sufficiently allocated; (2)
       decrease the number of SAO requests by consular officers because of advanced
       screening; and (3) provide DOS with one answer from DHS components
       regarding visa eligibility and admissibility. Appendix E provides additional
       information on the previous process and PATRIOT’s effect on visa processing
       workflow.




www.oig.dhs.gov                            24                                OIG-13-103
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       Recommendation

       We recommend that the U.S. Immigration and Customs Enforcement’s Executive
       Associate Director for Homeland Security Investigations:

       Recommendation #2:

       Develop and implement a process that ensures the Pre-Adjudicated Threat
       Recognition Intelligence Operations Team program is effective in addressing visa
       security concerns. At a minimum, this should include establishing and
       implementing protocols for conducting periodic reviews.

       Management Response to Recommendation 2: ICE concurs with
       Recommendation 2. ICE officials responded that assessing PATRIOT process
       effectiveness will be critical to ensure it is operating as intended, as it is a new
       initiative aimed at increasing the efficiency and effectiveness of ICE’s Homeland
       Security Investigations’ visa security operations. Homeland Security
       Investigations intends to accomplish this through a comparison of final results to
       validate that screening criteria are being assessed correctly, that analysts and
       agents are interpreting correctly the initial hits, and that they are identifying
       ineligibilities and inadmissibilities appropriately in accordance with their findings.

       The standard operating procedures for PATRIOT are currently under
       development. Homeland Security Investigations will include a procedure for
       conducting periodic reviews of the PATRIOT screening and vetting processes in
       those standard operating procedure. Homeland Security Investigations intends
       to assess the effectiveness of the process and employee training through
       random sampling and spot checks of record information once PATRIOT begins
       “live” operation. If these methods prove inadequate, Homeland Security
       Investigations will modify or replace them. Once effective and efficient methods
       for evaluating the PATRIOT process and user training are determined, they will
       be included in the PATRIOT standard operating procedures. After evaluation, ICE
       will be able to estimate better a target date for establishing the recommended
       procedures.

       OIG Analysis: We consider ICE’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. We will close this
       recommendation when we receive and have reviewed the PATRIOT standard
       operating procedures.




www.oig.dhs.gov                              25                                 OIG-13-103
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




30
31




www.oig.dhs.gov                 26                   OIG-13-103
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                 27                   OIG-13-103
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




         DHS Has No Knowledge of Plans To Transfer Mr. Omar Abdel Rahman To
         Egyptian Custody

         During Mr. Eldin’s June 19, 2012, meeting with officials at the White House, he
         raised the possibility of transferring convicted terrorist Omar Abdel Rahman
         from U.S. custody to Egyptian custody, for humanitarian and health reasons.
         DHS officials, however, are unaware of any plans to facilitate the transfer of Mr.
         Rahman to Egyptian custody.

         The Case of Mr. Omar Abdel Rahman

         Mr. Rahman is widely regarded as a spiritual leader of the Islamic Group. He has
         been a revered figure in Islamist extremist circles since the 1980s. In 1981, the
         Egyptian Government charged Mr. Rahman on suspicion of involvement in the
         assassination of Egyptian President Anwar Sadat, but Mr. Rahman was acquitted.
         Mr. Rahman entered the United States on a temporary visa in 1990, and was
         granted lawful permanent resident status in 1991. In 1995, he was convicted of
         seditious conspiracy that included the 1993 World Trade Center bombing and a
         plot to bomb other New York City landmarks.

         Mr. Rahman has a record of past immigration violations that include falsifying
         information on his application for adjustment of status by misrepresenting his
         criminal history, and failing to disclose a prior marriage.32 Mr. Rahman has been
         subject to an order of exclusion from the United States since 1993 because of
         those violations, but is in DOJ custody for the higher charge of seditious
         conspiracy. 33 Mr. Rahman is currently serving a life sentence without parole at a
         Federal Bureau of Prisons medical facility in North Carolina. Since the
         resignation of former Egyptian President Hosni Mubarak in February 2011, there
         have been persistent requests from Egyptian officials for Mr. Rahman’s transfer
         to Egyptian custody, for humanitarian and health reasons. DOJ’s International
         Prisoner Transfer Program permits the transfer of prisoners whose home

32
   Adjustment of status is the process by which an eligible individual, already in the United States, can get
permanent residence status without having to return to their home country to complete visa processing.
33
   Order of exclusion is the formal proceeding in which an alien’s admissibility to the United States is
determined. When an alien is determined inadmissible to the United States, the alien may be excluded
from entry and forced to return to the last departure point or deported to alien’s home country.




www.oig.dhs.gov                                       28                                       OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       countries have a treaty relationship with the United States, but as of March
       2013, no such treaty exists between the United States and Egypt.
       In a September 19, 2012, letter addressed to DOJ and DOS, members of Congress
       requested information regarding reports of the possible release of Mr. Rahman
       into Egyptian custody. In a joint response to Congress on October 5, 2012, DOJ
       and DOS officials stated there was no truth to reports concerning the release of
       Mr. Rahman to another country to complete his sentence.

       As of March 2013, DHS officials with a potential role in coordinating the transfer
       of Mr. Rahman were not aware of any plans to facilitate the transfer of Mr.
       Rahman from U.S. custody to Egyptian custody. These officials stated that they
       have never been consulted or involved in any discussions pertaining to his
       release or transfer.




www.oig.dhs.gov                            29                                 OIG-13-103
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

Several DHS components, as well as other Federal departments and agencies, have a
responsibility to ensure that members of FTOs who seek admission into the United
States may be admitted only in compliance with applicable Federal laws. Within DHS,
the Office of Policy, ICE, and CBP all contribute to screening members of FTOs who
attempt to travel to the United States on nonimmigrant visas. In June 2012, former
Chairman Peter T. King, of the House Committee on Homeland Security, raised concerns
that Hani Nour Eldin, an elected member of the Construction and Development party,
affiliated with the Islamic Group, was issued a visa and granted admission into the
United States. During this visit, Mr. Eldin raised with White House officials the
possibility of transferring Omar Abdel Rahman, a convicted terrorist also known as the
“Blind Sheik,” from U.S. custody to Egyptian custody, for humanitarian and health
reasons. In August 2012, former Chairman King requested that we review DHS
admissibility processes for foreign nationals who are members of FTOs.

Our objectives were to (1) determine what DHS policies and procedures are in place for
admitting members of FTOs into the United States, and evaluate whether the current
policies and procedures present national security vulnerabilities; (2) assess the level of
coordination between DHS and DOS when waivers for admission into the United States
are granted to members of FTOs; (3) assess whether the admittance of specific
individuals were in compliance with applicable Federal laws, DHS policies and
procedures, or other requirements; and (4) establish whether DHS has a role in custodial
transfers of foreign nationals who are in DOJ custody on terrorism charges.

We examined DHS directives, policies, and procedures for admitting members of FTOs
into the United States. We also analyzed MOUs between DHS and DOS. In addition, we
observed how ICE’s VSP staff screen visa applicants. We reviewed law enforcement
data system records and the SAO for Mr. Eldin.

We interviewed DHS officials who have a role in making eligibility decisions for admitting
members of FTOs into the United States, adjudicating cases for which waivers have been



www.oig.dhs.gov                             30                                OIG-13-103
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


requested, and developing and implementing DHS policy and guidance related to
nonimmigrant visas. This allowed us to assess the effectiveness of DHS’ efforts to
protect national security interests, while providing eligible foreign nationals access to
nonimmigrant visas. In addition, we met with DOS officials to discuss the level of
coordination when waivers for admission into the United States are requested by or on
behalf of members of FTOs. We also had discussions with DOJ officials to determine
whether Mr. Rahman’s custody transfer from the United States to Egypt was ever
discussed with DHS officials.

Our fieldwork began in October 2012 and concluded in February 2013. We conducted
this review under the authority of the Inspector General Act of 1978, as amended, and
according to the Quality Standards for Inspections issued by the Council of the
Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                             31                                OIG-13-103
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix B
Recommendations
       We recommend that the Director for U.S. Immigration and Customs
       Enforcement:

       Recommendation #1:

       Work with visa security partners to develop a threshold for interagency
       notifications, when information developed during the visa adjudication process
       identifies potential issues concerning an applicant’s admissibility to the United
       States.

       We recommend that the U.S. Immigration and Customs Enforcement’s Executive
       Associate Director for Homeland Security Investigations:

       Recommendation #2:

       Develop and implement a process that ensures the Pre-Adjudicated Threat
       Recognition Intelligence Operations Team program is effective in addressing visa
       security concerns. At a minimum, this should include establishing and
       implementing protocols for conducting periodic reviews.

       Recommendation #3:




www.oig.dhs.gov                            32                                 OIG-13-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Appendix C
Management Comments to the Draft Report



                                                                             U.S. Ol'pUlmfnl of Il oml'l"nd S« uril)
                                                                             !l00 12" Strut. SW
                                                                             washington. DC 20536


                                                                             u.s. Immigration
                                                                             and Customs
                                                                             Enforcement

                                                     Junc 17,20 13


           MEMORANDUM FOR : Dcborah L. Outten-Mills
                            Acting Assistant Inspector General for Ins pections
                            Office of Inspec   General

           FROM:                     Radha C. Sckar
                                     Acting Executiv  sociate Director,
                                     Management and Admin istration

           SUBJECT:                  Management Responsc to OIG Draft, "D HS ' Efforts to Screen
                                     Members of Foreign Terrorist Organizations", dated April 29, 2013

           U.S. Immigration and Customs Enforcement (ICE) appreciates the opportunity to comment on
           the subject draft report. We have reviewed the report and concur with the three
           recommendations, which are focused o n enhancing the visa screening process.

           Enhancing our ability to screen visa applications has been a long-standing priority for ICE. Over
           thc years, ICE has successfully expanded the number of siles whcre we have visa security units
           in place. Also, to enhance screening ICE has been developing a technology solution called Pre-
           Adjudicated Threat Recogniti on Intelligence Operations Team (PATRIOT). PATR IOT w ill
           allow our Special Agents additional time to vet visa applications, provide expanded opportunities
           to work with our Departmenl of State colleagues, and improve our abi lity 10 hi gh light applicants
           fo r furthe r scrutiny.

           As detailed in the attachment, ICE will continue working to complete corrective actions for these
           recommendations. We are requesting that the recommendations be considered resolved and
           open pending completion of our planned corrective actions.

           Should you ha ve questions or concerns, please contact M ichael Moy, Audit Portfolio Manager.
           al (202) 732-6263, or bye-mail at MichaeI.C.Moy@ice.dhs.gov.

           Attachment




                                                                                               WW'"   icc.go"




www.oig.dhs.gov                                           33                                                           OIG-13-103
                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



                               ICE Response to   ole Draft Report Recommendations:
                      " DHS' Efforts to Scr een l\'lembers of Fo reign Terrorist Organizations"
                                        IOIG ProjCCl No. 13-002-IS P-PLCYI

           Recommendation 1: Work with visa security partners to develop a threshold for int('..-agency
           notifications, when information developed during the visa adj udication process identifies
           potential issues concerning an applicant 's admissibility to thc United Statcs.

           ICE Response: ICE concurs with this recommendation. The scheduled roll-out of the Pre-
           Adjudicated Threat Recognition Intelligence Operations Team (PATRIOT) initiative will allow
           the ICE Visa Security Unit (VSU) Special Agents at post to receive non-immigrant visa (NIV)
           applications via the VSPTS.net which is an upgraded version oflhe tracking system. The
           Special Agents will be able to review and vet the applications prior to the Department of State
           (DOS) adjudicating the applicant. Th is will allow the VSU agents additional time and
           opportunity to discuss with DOS and other USG 's at post, and to highlight visa applicants who
           may requirc additional scrutiny who would otherwise fall outside the targeting criteri a oflhat
           particu lar post. Also, PATRIOT wi ll allow the VISAS VIPER committee to be more effective as
           they will have the capability to discuss appli cants prior to their initial visa interview with DOS.
           PATRIOT will give the ICE VSU's and DOS time to coordi nate a course of action. With the
           combination of PATRIOT, DOS and ICE VSU's at post, the visa security process and sharing of
           infomlation wil l be greatly strengthened.

           Thc detcnnination ofwhcther an applicant is chosen for further scrutiny by the VSU's at post is
           called the "target ing plan." The target ing plan is design('-d   VSU post based on the threat
           environmcnt at that




           Along with the SAO process, each ICE VSU participates in an interagency committee to
           improve the visa security process. This is known as the VISAS VIPER Committcc. This
           process is used by DOS to nominate known or suspected terrorists to be entered in the
           appropriate lookout data systems. This is an important process to insure that thc dcrogatory
           information is being shared and to keep the visa process secure. After evaluation, ICE will be
           better ablc to estimate a target date for establishing the recommcnded procedures.

           Reco mmendation 2: Dcvelop and implement a process that ensures the Pre-Adjudicated Threat
           Recognition Intelligence Operations Team program is effective in addressing visa security
           concerns. At a minimum, this should include cstablishing and implementing protocols for
           conducting periodic reviews.

           ICE Rcsponsc: ICE concurs with this recommendation. As a new initiati ve that increases the
           efficiency and effcctiveness of HSl's visa security operat ions, it will be critical to assess the
           effectivcness of the PATRIOT process to ensure that it is operating as intended, HSI intends to
           accomplish this through a comparison of final results to validate that the scrccning criteria is
           being assessed correctly by the process and that analysts and agents arc correctly interpreting the
           initial hits and appropriately identifying incl igibilitics and inadmissibilities in accordance with
           their findings. The standard operating procedures (SOP) for PATR IOT are currently under




www.oig.dhs.gov                                              34                                                   OIG-13-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



                              ICE Response to OIG Draft Report Recommendations:

                     " DHS ' Efforts to Screen Members of Foreign Terrorist Organizations"
                                        IOIG P,ojeer No. 13-002-ISP-PLCYI

           developmcIlI . HSI will in cl ude a procedure for conducting periodic reviews of th e PATR IOT
           screening and vett ing processes in that SOP. HSI intends to assess the effectiveness of the
           process and empl oyee training through random sampling and spot checks of record illfonnation
           once PATRIOT begins "live" operation, currently expected to begin shOitly. If these methods
           prove inadequate, HSI will modifY or replace them. Once eltecti ve and efficient methods tor
           evaluating the effectiveness of the PATRIOT process and lIser training are detennined , they will
           be included in the PATRIOT SOP. After evaluation, ICE will be better able to estimate a target
           date for establishing the recommended procedures.




                                                                                                               2




www.oig.dhs.gov                                           35                                                   OIG-13-103
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Appendix D
Categories of Terrorist Organizations
Tier I
Designated by the Secretary of State, in accordance with section 219 of the INA, and are
also referred to as Foreign Terrorist Organizations (FTOs). Legal criteria for designation
under Section 219 of the INA:

     1.	 It must be a foreign organization.
     2.	 The organization must engage in terrorist activity, as defined in section 212
         (a)(3)(B) of the INA (8 U.S.C. § 1182(a)(3)(B)), or terrorism, as defined in section
         140(d)(2) of the Foreign Relations Authorization Act, Fiscal Years 1988 and 1989
         (22 U.S.C. § 2656f(d)(2)), or retain the capability and intent to engage in terrorist
         activity or terrorism.
     3.	 The organization's terrorist activity or terrorism must threaten the security of
         U.S. nationals or the national security (national defense, foreign relations, or the
         economic interests) of the United States.

Tier II

Designated by the Secretary of State and excludes individuals associated with terrorist
organizations from entry to the United States. These organizations are included in the
Terrorist Exclusion List.34

Tier III

Defined by law as “a group of two or more individuals, whether organized or not, which
engages in, or has a subgroup which engages in,” terrorist activity. Tier III organizations
are also called “undesignated terrorist organizations” because they qualify as terrorist
organizations based on their activities alone without undergoing a formal designation
process as Tier I and Tier II organizations. Instead, the determination of whether a
group can be considered a Tier III organization is made on a case-by-case basis, generally
in connection with the review of an application for an immigration benefit. Tier III
organizations can and do arise and change over time.


34
  Section 411 of the USA PATRIOT ACT of 2001 authorizes the Secretary of DOS to designate groups as
Terrorist Exclusion List organizations in consultation with, or upon the request of, the Attorney General
strictly for immigration purposes. Designation on the Terrorist Exclusion List allows the U.S. Government
to exclude or deport aliens who provide material assistance to, or solicit it for, designated organizations.




www.oig.dhs.gov                                      36	                                       OIG-13-103
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security


Appendix E





www.oig.dhs.gov                 37                   OIG-13-103
                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix F
Major Contributors to This Report
Marcia Moxey Hodges, Chief Inspector
Tatyana Martell, Senior Inspector
Brendan Bacon, Inspector
Rahne Jones, Inspector
Jennifer Kim, Inspector




www.oig.dhs.gov                         38                   OIG-13-103
                           OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix G
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Director, U.S. Immigration and Customs Enforcement
Deputy Commissioner, U.S. Customs and Border Protection
ICE Audit Liaison
CBP Audit Liaison
Acting Chief Privacy Officer

U.S. Department of Justice

GAO/OIG Liaison

U.S. Department of State

Assistant Secretary, Bureau of Consular Affairs

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                            39                           OIG-13-103
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
